U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

June 12, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Szonyi v. Barr, No. 19-1220
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 10,
2020, and placed on the Court’s docket on April 16, 2020. The response of the United States is
now due, after one extension, on June 17, 2020. We respectfully request, under Rule 30.4 of the
Rules of this Court, a further extension of time to and including July 17, 2020, within which to
file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of
previously assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-1220
SZONYI, ISTVAN
WILLIAM P. BARR, ATTORNEY GENERAL

DAVID TIMOTHY RAIMER
JONES DAY
51 LOUISIANA AVE. NW
WASHINGTON, DC 20001
202-879-3939
DTRAIMER@JONESDAY.COM

